           U.S. Department of
                                                                             Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                                          Date:   June 20, 2012
           Single Audit on the New Mexico
           Department of Transportation
           Report No. QC-2012-147
                                                                                       Reply To    JA-20
  From:    Earl C. Hedges                                                               Attn Of:
           Program Director for Single Audit

    To:    See Distribution

           The U. S. Department of Transportation (DOT) is the cognizant Federal single audit agency
           for the New Mexico Department of Transportation (New Mexico DOT). This report
           presents the results of our Quality Control Review (QCR) of a single audit performed by
           Moss Adams LLP (Moss Adams) on New Mexico DOT for the fiscal year ended
           June 30, 2010. During this period, New Mexico DOT expended approximately $452 million
           from DOT grant programs, as shown on the attached Schedule of Expenditures of Federal
           Awards. The DOT programs determined to be major by Moss Adams were:
           (1) the Highway Planning and Construction Program, (2) the Federal Transit Cluster,
           (3) the Nonurbanized Area Formula Program, (4) the Highway Safety Cluster, and
           (5) the Minimum Penalties for Repeat Offenders for Driving While Intoxicated Program.
           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of States, Local
           Governments, and Non-Profit Organizations,” requires the auditor to render an opinion on
           the entity’s financial statements, identify inappropriate use of Federal funds, and report
           internal control and compliance deficiencies that affect Federal grant programs.
           Moss Adams rendered an unqualified (clean) opinion on New Mexico DOT’s financial
           statements and did not question any costs concerning DOT’s grant programs. Moss Adams
           rendered an unqualified opinion on DOT’s major programs, but made recommendations to
           correct internal control and compliance deficiencies that directly affect Federal Highway
           Administration (FHWA), Federal Transit Authority (FTA), and National Highway Traffic
           Safety Administration (NHTSA) Programs. 1




           1
               We advised FHWA, FTA and NHTSA about these deficiencies in a separate memorandum. The single audit report issued by
               Moss Adams LLP is available upon request sent to singleauditrequest@oig.dot.gov.
                                                                                        2


SCOPE

The purpose of our QCR was to determine: (1) whether the audit work complied with
generally accepted Government auditing standards, the Single Audit Act of 1984, as
amended (the Act), and OMB Circular A-133, and (2) the extent to which we can rely on
the auditor’s work.

RESULTS

During our initial review, performed in June 2011, we determined that Moss Adams’s audit
work was Technically Deficient. An audit that is Technically Deficient includes
documentation that contains quality deficiencies that affect the reliability of the audit
results, and requires corrective actions for the audit under review. The most significant
deficiencies in Moss Adams’ audit work were:

1. Identification of Direct and Material Compliance Requirements for FTA and
   NHTSA Major Programs - Moss Adams did not adequately identify the direct and
   material compliance requirements for FTA and NHTSA’s major programs.
2. Insufficient Compliance Testing of Allowable Activities/Allowable Costs on
   Highway Planning and Construction Program - Moss Adams did not select a
   sufficient amount of ARRA and construction related expenditures as part of its
   allowable activities and allowable cost compliance testing to meet OMB’s Compliance
   Supplement requirements.
3. Compliance Testing of Major Program ARRA Requirements - Moss Adams’ audit
   documentation did not adequately evidence compliance testing of major programs’
   ARRA requirements prescribed in OMB’s Compliance Supplement.
4. Subrecipient Monitoring and Eligibility - Moss Adams’ audit documentation did not
   evidence the testing of internal controls and compliance related to subrecipient
   monitoring and eligibility on FTA’s Nonurbanized Area Formula Program.
5. Special Tests and Provisions/Quality Assurance Plan - Moss Adams’ audit
   documentation did not evidence the testing of internal controls and compliance related to
   New Mexico DOT’s Quality Assurance Plan on the Highway Planning and Construction
   Program.
6. Compliance Testing of Cash Management and Matching - Moss Adams’ did not
   adequately document its compliance testing of cash management and matching
   prescribed in the OMB Compliance Supplement.

We recommended that Moss Adams perform additional internal control and compliance
testing and reissue its Single Audit Report on New Mexico DOT. Moss Adams concurred
with our recommendation and requested that we perform a follow-up review of its
additional audit work.
                                                                                              3


In February 2012, we performed a follow-up review and determined that the audit work was
Acceptable with Deficiencies, and therefore generally met the requirements of generally
accepted Government auditing standards, the Act, and OMB Circular A-133. We found
nothing to indicate that Moss Adams’ reports on New Mexico DOT’s internal control and
compliance were inappropriate or unreliable.

However, we identified deficiencies in audit documentation that Moss Adams needs to
correct in future audits. Based on Moss Adams’ explanations, we determined that these
deficiencies did not alter the overall results of the audit. These deficiencies are related to the
following areas:

Internal Controls Testing Related to Eligibility and Matching - Moss Adams needs to
improve its audit documentation to show how it tests key internal controls related to
eligibility and matching requirements (affecting FHWA, FTA’s Cluster, and FTA’s
Nonurbanized Area Formula Programs). Moss Adams prepared internal control narratives,
performed system walkthroughs, and relied on compliance testing to test internal controls
related to eligibility and matching. However, in future audits, Moss Adams has agreed to
better document its testing of key internal controls related to eligibility and matching.

Consideration of Non-Compliance on Each Major Program Opinion - Moss Adams
needs to improve its audit documentation to show how it considers non-compliance, both
individually and in the aggregate, when it determines the overall opinion for each major
program. Based on review of the audit documentation, we agreed with Moss Adams’
rendered opinion on each major program. However, Moss Adams has agreed to improve its
documentation on opinion determinations for each major program in future audits.

If you have any questions concerning this report, please call me at (410) 962-1729, or
John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                              #
Distribution:
   Division Administrator, FHWA, New Mexico Division Office
   Regional Administrator, FTA, Region VI
   Regional Administrator, NHTSA, Region VI

cc: Audit Liaison, FHWA, HAIM-13
    Audit Liaison, FTA, TPM-2
    Audit Liaison, NHTSA, NPO-310
    Audit Liaison, OST, M-1
    Controller, New Mexico DOT
